Memorandum from the Inspector General, ET 4C-K



November 18, 2005

Bill Baxter, ET 12A-K
Skila Harris, ET 12A-K

AUDIT 2005-041F - REVIEW OF PRICEWATERHOUSECOOPERS’ AUDIT OF THE
TENNESSEE VALLEY AUTHORITY FISCAL YEAR 2005 FINANCIAL STATEMENTS



The Tennessee Valley Authority (TVA) contracted with the independent certified public
accounting firm of PricewaterhouseCoopers LLP (PricewaterhouseCoopers) to audit the
balance sheets as of September 30, 2005 and 2004, and the related statements of income,
changes in proprietary capital, and cash flows for each of the three years in the period
ended September 30, 2005. The contract required the audit be done in accordance with
generally accepted government auditing standards.

Under the Inspector General Act, the Inspector General (IG) is responsible for taking
appropriate steps to assure any work performed by nonfederal auditors, including
PricewaterhouseCoopers, complies with generally accepted government auditing standards.
The Chief Financial Officers Act also places responsibility on the IG regarding TVA’s annual
financial statement audit. In keeping with these statutory responsibilities, the TVA Office of
Inspector General reviewed PricewaterhouseCoopers’ reports and related audit
documentation, interviewed their representatives, and performed such other procedures as
we deemed appropriate in the circumstances to provide reasonable assurance the audit was
performed in accordance with generally accepted government auditing standards.

The objective of our review was not intended to enable us to express, and we do not
express, an opinion on TVA’s financial statements or on management’s conclusions about
the effectiveness of its system of internal control. PricewaterhouseCoopers is responsible
for the auditor’s report dated November 17, 2005, and the conclusions expressed in the
report. However, our review disclosed no instances where PricewaterhouseCoopers did not
comply, in all material respects, with generally accepted government auditing standards.
Our review was performed in accordance with generally accepted government auditing
standards.




Richard W. Moore

RLT:SDB
cc: See page 2
Bill Baxter
Skila Harris
Page 2
November 18, 2005



cc:   Mr. G. Robert Powell
      PricewaterhouseCoopers LLP
      10 Tenth Street, Suite 1400
      Atlanta, Georgia 30309-3851

      Michael E. Rescoe, ET 12A-K
      Randy P. Trusley, WT 5C-K
      OIG File No. 2005-041F
